Audit Report




OIG-11-049
Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2010 and 2009 Financial Statements

December 15, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 15, 2010


            MEMORANDUM FOR JAMES H. FREIS, JR., DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Years 2010 and 2009 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network’s (FinCEN) financial statements for fiscal years 2010 and 2009. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of FinCEN as of September 30, 2010 and for the year then ended. The
            FinCEN’s financial statements for FY 2009 were audited by KPMG LLP, another
            independent certified public accounting firm, whose report dated December 15,
            2009, expressed an unqualified opinion. Both contracts required that the audits be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget Bulletin No. 07-04,
            Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 29, 2010 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                          Financial Crimes Enforcement Network
                                    AUDIT REPORT
                                      Fiscal Year 2010

                              DEPARTMENT OF THE TREASURY
                                   WASHINGTON, D.C.




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
                                                  TABLE OF CONTENTS


Management’s Discussion and Analysis ...................................................................................1

Financial Statements:

         Balance Sheets .............................................................................................................10
         Statements of Net Cost.................................................................................................11
         Statements of Changes in Net Position ........................................................................12
         Statements of Budgetary Resources.............................................................................13
         Statements of Custodial Activity .................................................................................15
         Notes to Financial Statements ......................................................................................16

Required Supplementary Information......................................................................................33

Independent Auditor’s Reports:

    Independent Auditor’s Report on Financial Statements ....................................................37
    Independent Auditor’s Report on Internal Control over Financial Reporting ...................39
    Independent Auditor’s Report on Compliance with Laws and Regulations......................41
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network

                              Management Discussion and Analysis
                                     September 30, 2010


The Financial Crimes Enforcement Network (FinCEN), a Treasury Department bureau reporting
to the Under Secretary of the Office of Terrorism and Financial Intelligence, plays a key role in
supporting the Department’s strategic goal to prevent terrorism and promote the nation’s security
through strengthened international financial systems. This role includes ensuring safer and more
transparent U.S. and international financial systems through the administration of the Bank
Secrecy Act (BSA).

The BSA requires financial institutions to file reports and maintain records on certain types of
financial activity and to establish appropriate internal controls to guard against financial fraud,
money laundering, terrorist financing, and other types of illicit finance. These reports and
records have a high degree of usefulness in criminal, tax, and regulatory matters. Documents
filed by businesses pursuant to the BSA requirements are heavily used by law enforcement
agencies, both domestically and through exchanges with international counterparts, to identify,
detect and deter financial fraud and money laundering, whether it is in furtherance of a criminal
enterprise, terrorism, tax evasion or other unlawful activity. Acts of fraud and acts of money
laundering are interconnected: the financial gain of the fraudulent activity ultimately needs to be
integrated into the financial system. Money laundering is often a malignant and pernicious
product of fraud.

FinCEN serves as the nation’s financial intelligence unit (FIU) and is a leading member of the
Egmont Group, an informal group of FIUs from 120 jurisdictions across the world. An FIU
serves as a national center to collect, analyze, disseminate, and exchange information pursuant to
a country’s anti-money laundering/counter-terrorist financing (AML/CFT) legislation and
regulations. This includes information about suspicious or unusual financial activity reported by
the financial sector. FIUs have specific authority to share lead information with their foreign
counterparts to combat cross-border financial crime.

FinCEN’s activities and efforts are developed in coordination with federal, state, and
international partners. These bureau efforts are linked to the following strategic goals:
    • Financial systems resistant to abuse by money launders, terrorists, and their financial
        supporters, and other perpetrators of financial crime;
    • Detection and deterrence of money laundering, terrorism financing, and other illicit
        activity; and
    • Efficient management, safeguarding, and use of BSA information.




                                                 1
FY 2010 Accomplishments

In the regulatory area, FinCEN’s policy efforts focus on efficient and effective BSA
administration. This includes improving the consistency in the application of BSA regulations to
regulated financial institutions, providing guidance regarding regulatory expectations,
conducting studies to provide feedback to stakeholders, and initiating enforcement actions when
appropriate.

In FY 2010, FinCEN:
    • Enhanced collaboration with law enforcement to identify sources of lead information and
       was in the process of developing analysis criteria to more effectively leverage BSA data
       to identify potential non-compliant institutions. This strategy should enable FinCEN to
       become even more proactive in identifying and taking action against non-compliant
       institutions, including targeted examination referrals and enforcement measures as
       warranted. In addition, we continue to work closely with the Department of Justice to
       coordinate investigations in order to proceed concurrently on both civil and criminal
       actions, where appropriate;
    • Continued to participate in the U.S. Government’s coordinated attack on mortgage fraud
       by updating analyses of Suspicious Activity Reports (SARs) to highlight current trends in
       mortgage loan fraud, and in loan modification and foreclosure rescue scams.
       Specifically, FinCEN prepared two reports showing that mortgage loan fraud SAR filings
       continued to increase through 2009, and that mortgage loan purchasers and providers of
       credit enhancements have taken an increasing role in detecting potential fraud or
       misrepresentations. FinCEN also issued a report analyzing the impact of FinCEN’s 2009
       Advisory on loan modification/foreclosure rescue scams, showing that after the Advisory
       was issued, sampled SAR filings reporting such activity in every covered industry more
       than doubled over the entire preceding five-year period. FinCEN issued additional
       advisories to highlight updated loan modification scam techniques and reverse mortgage
       fraud schemes potentially related to the Federal Housing Administration (FHA) Home
       Equity Conversion Mortgage program; and
    • Finalized or advanced several significant rulemakings to further strengthen the financial
       system’s resistance to financial crimes. FinCEN issued a final rule enhancing domestic
       and international information sharing to thwart money laundering and terrorist finance by
       providing access to FinCEN’s successful 314(a) program to foreign law enforcement
       agencies from jurisdictions that provide, either by treaty or FinCEN’s determination,
       reciprocal access to certain account and transaction information, and to U.S. state and
       local law enforcement agencies. FinCEN also issued Notices of Proposed Rulemaking
       that would establish a more comprehensive BSA regulatory framework to providers and
       sellers of prepaid access; require banks and money services businesses to report certain
       cross-border electronic transmittals of funds to FinCEN; and clarify foreign bank account
       reporting requirements.

FinCEN’s efforts in the analytical area focus on developing products and services to enhance law
enforcement’s detection and deterrence of domestic and international financial fraud, money
laundering, terrorism financing, and other illicit activity. FinCEN intends to improve its expert




                                               2
analysis of BSA data to provide early warning of emerging trends of fraud and other criminal
abuse. Activity in the analytical area includes information exchange with counterpart FIUs in
the Egmont Group.

In FY 2010, FinCEN:
    • Leveraged the relationships and techniques developed in the mortgage fraud context to
       initiate similar efforts in the areas of health care fraud and securities fraud through its
       involvement in the Financial Fraud Enforcement Task Force. FinCEN also undertook
       efforts to expand information sharing across the U.S. Government in a coordinated
       manner, worked to enhance understanding of the value and utilization of BSA data for
       investigative purposes, and supported task force summit tour events with analytical
       targeting packages/demonstrations, through participation in Committees and other
       working groups of the Financial Fraud Enforcement Task Force, including acting, along
       with the Executive Office for the U.S. Attorneys, as co-chair of the Task Force’s Training
       and Information Sharing Committee;
    • Completed a joint study with the Mexican FIU of currency flows between the U.S and
       Mexico. The study provides a more accurate baseline of U.S. dollar currency activity in
       Mexico from which the U.S. and Mexico can more effectively measure the scope of bulk
       cash smuggling into Mexico and the effectiveness of future AML and cash interdiction
       efforts. The study also developed suspected Mexican money laundering targets and
       referred them to U.S. and Mexican law enforcement. FinCEN continues to coordinate
       investigative follow-up of these targets with U.S. law enforcement and develop plans for
       future targeting efforts. Completion of the study has positioned FinCEN well to respond
       to new Mexican regulations related to U.S. dollar transactions;
    • Created and disseminated tactical financial intelligence reports to Egmont Group FIUs
       and managed case exchange with FIUs on behalf of U.S. law enforcement and regulatory
       agencies. These intelligence products are integral to domestic and foreign investigations
       of money laundering, financial fraud, and terrorist financing around the world; and
    • Worked closely with the developing FIU in Afghanistan, FinTRACA. As a result of
       FinCEN’s efforts within the Egmont Group, FinTRACA was admitted to the Egmont
       Group in June 2010. Egmont Group membership is expected to lead to a considerably
       greater flow of financial intelligence between FinTRACA and other FIUs, including
       FinCEN. FinCEN also deployed a staff member to Afghanistan to foster tactical
       information sharing between the FIU and U.S. law enforcement.

 FinCEN’s efforts related to the efficient management, safeguarding, and use of BSA
 information focus on maximizing utilization by improving the overall information
 infrastructure and enhancing information technology management capabilities. In the past year
 both currency transaction reports and SAR filings decreased for the first time ever, reflecting
 efforts to focus on data most needed, while data quality continues to increase. Improving data
 quality and access remains a priority for FinCEN.


 In FY 2010, FinCEN:
   • Introduced additional field and business rule validations to batch data at E-Filing
      submission to improve data quality and provide faster error notification for SARs. Filers


                                                3
       received an e-mail if their submitted file has errors and they are directed to a designated
       error page to view batch validation error details;
   •   Completed all of the project-level documentation defined in FinCEN’s System
       Development Life Cycle for the BSA Information Technology (IT) Modernization
       initiative. This documentation provides the necessary business requirements and
       architectural foundational elements to enable FinCEN to proceed to the Design phase of
       the Program; and
   •   Implemented the E-Filing Work-In-Process (WIP) database to provide additional data
       validations and provide feedback to financial institutions.

Highlights of Performance Measures

Performance Measures                                                      FY        FY        FY
                                                                         2009      2010      2010
                                                                        Actual    Target    Actual
Percentage of federal and state regulatory agencies with                 43%       46%       46%
memoranda of understanding/information sharing agreements
Percentage of FinCEN’s Regulatory Resource Center customers              94%       90%       92%
rating the guidance received as understandable
Average time to process enforcement matters (years)                       1.0       1.0       0.8
Percentage of FinCEN’s compliance MOU holders finding                    82%       68%       86%
FinCEN’s information exchange valuable to improve the BSA
consistency and compliance of the financial system
Percentage of customers finding FinCEN’s analytic support highly         81%       81%       80%
valuable
Percentage of customers satisfied with BSA E-Filing                      94%       90%       96%

In the regulatory area, FinCEN continues to increase activities to monitor financial institutions
examined for BSA compliance by state and federal regulators through the establishment of
MOUs to exchange compliance information. In FY 2010, FinCEN met its target of 46 percent of
federal and state regulatory agencies with MOU/information sharing agreements. FinCEN
achieved its target by finalizing four additional MOUs with state regulatory agencies. FinCEN
will continue collaborating with state insurance agencies and other regulatory agencies to sign
additional agreements to meet future targets.

FinCEN surveys its compliance MOU holders to determine the impact of the information
exchange to improve the BSA consistency and compliance of the financial system.
In FY 2010, FinCEN surpassed its target of 68 percent rating the information exchange valuable
with 86 percent. FinCEN attributes a portion of this success to the distribution of analytic
information to the MOU holders throughout the fiscal year. To achieve future targets, FinCEN
will continue to facilitate routine discussions with the MOU holders.

FinCEN’s goal to provide financial institutions with understandable guidance through the BSA
Resource Center is critical to institutions establishing AML programs that comply with the BSA.
The FY 2010 goal was to maintain a 90 percent satisfaction level for customers rating the



                                                 4
guidance as “understandable,” and FinCEN surpassed its goal with 92 percent. FinCEN attained
this success by responding timely (within 24 hours of the inquiry), and providing a high level of
service. In order to achieve future targets, FinCEN will continue to make guidance available on
the Internet, accept and analyze customer feedback, and conduct surveys to measure customer
satisfaction.

FinCEN also works closely with its regulatory partners to take enforcement action against
financial institutions that systemically and egregiously violate the provisions of the BSA,
including through imposition of civil money penalties when appropriate. Timely enforcement
action is essential to deter non-compliance with the BSA. In FY 2010, FinCEN met its target for
the average time to process enforcement matters in one year with an average time of 0.8 year.
FinCEN will continue to actively manage casework to meet future targets.

In the analytical area, FinCEN supports domestic law enforcement and international FIU partners
by providing analyses of BSA information, and measures the percentage of customers finding
FinCEN’s analytic reports highly valuable. The measure closely ties to how BSA information is
used by law enforcement and international FIUs to identify, investigate, and prevent abuse of the
financial system. In FY 2010, 80 percent of the respondents rated the analytic products as highly
valuable. FinCEN narrowly missed its target of 81 percent. FinCEN attributes this to a need to
enhance communication with and understanding of law enforcement partners’ needs. FinCEN
has developed a strategy to increase communication with law enforcement partners and will
continue efforts to ensure its products and services meet those needs.

In the efficient management, safeguarding, and use of BSA information, FinCEN conducts a
survey of the users of the BSA E-Filing system to determine the overall satisfaction level and to
identify where improvements are needed. The FY 2010 target was to maintain at least a 90
percent satisfaction level, and FinCEN exceeded its target with 96 percent. FinCEN attributes
this to continued outreach, the implementation of a more industry-friendly forms submission
software (Adobe), and the receipt/acknowledgements and data validations specific to SARs now
available to the filing community. FinCEN will continue outreach to E-Filers and ensure the
technology supports to the demand to achieve future targets.


Future Outlook for FY 2011/FY 2012

FinCEN’s future plans in the regulatory area will improve its ability to strengthen financial
system security and enhance U.S. national security. To ensure financial systems are resistant to
abuse by money launderers, terrorists and other perpetrators of financial fraud and crimes,
FinCEN will:

   •   Finalize regulations applying AML program and SAR requirements for non-bank
       residential mortgage lenders and originators to prevent criminal actors from abusing the
       housing markets, and consider next steps with regard to bringing other participants in the
       loan and finance industry under the BSA;




                                                5
   •   Finalize proposed amendments to clarify the scope of the money services business (MSB)
       definitions to the extent consistent with appropriately managing money laundering risks
       in this industry;
   •   Finalize proposed regulations to bring providers and certain sellers of prepaid access into
       more comprehensive BSA requirements, including AML program, suspicious activity
       reporting, registration, and customer identification requirements;
   •   Continue to conduct analysis in support of regulatory initiatives (such as identity theft)
       and further efforts to combat mortgage loan fraud, building off prior analysis efforts to
       identify emerging trends (such as commercial real estate fraud), and continue to consider
       advisories to financial institutions highlighting emerging risks or other appropriate
       regulatory options; and
   •   Continue to enhance proactive compliance and enforcement efforts by implementing
       further steps based on risks informed by analysis and law enforcement, including targeted
       steps to increase money transmitter registration. FinCEN will also continue to strengthen
       oversight of recently-covered industries under the BSA, by signing additional
       information sharing agreements with state insurance regulators and working
       cooperatively with the Internal Revenue Service and state regulators on consistent, risk-
       based examination procedures.

FinCEN’s future plans in the analytical area will improve its ability to strengthen financial
system security and enhance U.S. national security. To detect and deter financial fraud, money
laundering, terrorism financing, and other illicit activity, FinCEN will:
    • Continue to work with law enforcement, financial institutions, and international partners
       to combat Mexican cartel-related drug, gun and human smuggling operations in Mexico
       and along the Southwest Border by increasing and improving the sharing and analysis of
       related financial information;
    • Continue to work with the Southwest Border Anti-Money Laundering Alliance and other
       federal or state efforts to interdict and investigate illicit money laundering on the
       Southwest Border through the detection of trends, patterns and significant criminal
       activity in wire remittance data. Under a state agreement FinCEN will receive an
       estimated 100 million records associated with wire transfers to and from the Mexican
       border area from 2005 to 2013;
    • Support federal law enforcement efforts to combat health care fraud by initiating an
       advanced targeting process to identify potential health care fraud perpetrators and to
       provide analytical support to investigations and prosecutions;
    • Improve analytical products and responsiveness to foreign government counterparts.
       FinCEN intends to dramatically increase the number of proactive intelligence reports sent
       to foreign counterpart FIUs. Foreign FIUs, in cooperation with foreign law enforcement
       agencies, would use these reports to develop new cases or enhance existing ones;
    • Increase joint analytical projects with foreign FIU counterparts through intensified
       operational engagements with key strategic partner FIUs. For example, FinCEN plans to
       replicate with other foreign FIUs a current analytical initiative involving FinCEN, the
       Mexican FIU, and the Internal Revenue Service’s Criminal Investigation Division (IRS-
       CI); and




                                                6
   •   Deepen cooperation with the Mexican FIU through the placement of a FinCEN staff
       member to work directly with the FIU. The staff member will facilitate joint analytical
       projects between the two FIUs and work to enhance the tactical information exchange
       process among the FIUs and U.S. law enforcement agencies.

FinCEN’s future plans will improve its ability to strengthen financial system security and
enhance U.S. national security. To ensure efficient management, safeguarding and use of BSA
information, FinCEN will:
      •    Continue to modernize BSA information management and analysis to equip law
           enforcement and financial industry regulators with better decision-making abilities,
           increase the value of BSA information through increased data integrity and analytical
           tools, and move Treasury to the ultimate goal of being a “paperless” agency;
      •    Deploy the new advanced analytical tool on the current technical environment;
      •    Establish the production and disaster recovery infrastructure;
      •    Deploy the Registered User Portal, which will provide a common user interface and
           authentication process for accessing BSA data;
      •    Begin the development efforts to build the BSA new system of record and basic
           query capabilities; and,
      •    Implement ability to discretely enter those select forms that are only currently
           accepted via paper filing.


FY 2010 Financial Statement Highlights

Highlights of FinCEN’s FY 2010 financial performance appear below. FinCEN is financed
annually through appropriations authorized by Congress. The FY 2010 enacted budget is $111
million.

Balance Sheets: Assets: The total assets as of September 30, 2010 and 2009 were $63.5 and
$44.5 million, respectively, of which approximately 74.3 percent consists of fund balance with
Treasury in 2010 and 78.9 percent in 2009. Total assets increased by $19.0 million. This
increase primarily resulted from $12.1 million increase in the fund balance with Treasury, a $3.0
million increase in accounts receivable, as well as a $4.2 million increase in property and
equipment. This was offset by a $0.3 million decrease in advances and prepayments.
Liabilities: The total liabilities as of September 30, 2010 and 2009 were $13.9 and $10.9
million, respectively. There was a $3.0 million increase in the total liabilities in FY 2010 over
FY 2009. The increase was a result of the Information Technology Project referred to as BSA IT
Modernization in accounts payable.

Statement of Net Costs: The net cost of operations as of September 30, 2010 and 2009 was
$124.7 million and $119.6 million, respectively. This was an increase of $5.1 million, or 4.3
percent. All of FinCEN’s costs are reported under the Department of the Treasury’s Strategic
Goal 3: Prevented Terrorism and Promoted the Nation’s Security through Strengthened
International Financial Systems. FinCEN’s net cost aligned to its own Strategic Goals is
disclosed on the face of the statement of net cost. A significant portion of FinCEN’s net costs
($58.4 million or 46.8 percent) relates to FinCEN’s Strategic Goal 3: Efficient Management,
Safeguarding and Use of BSA Information.

                                                7
Internal Controls, Systems, and Audits

Financial management systems are in substantial compliance with federal financial systems
standards, the Federal Manager’s Financial Integrity Act (FMFIA) Section 4, and the Federal
Financial Management Improvement Act (FFMIA). FinCEN relies on the Bureau of Public Debt
(BPD) Administrative Resource Center (ARC) for administrative and accounting services and
systems.

Two audits were completed in FY 2010 by the Government Accountability Office (GAO) and
one audit by the Treasury Office of the Inspector General (OIG). The first GAO audit examined
the extent to which the law enforcement community finds FinCEN’s support useful in its efforts
to investigate and prosecute financial crimes. GAO recommended changes to improve
communication and enhance the support FinCEN provides to law enforcement. The second
GAO audit examined FinCEN’s regulatory efforts related to AML requirements for prepaid
access products and recommended that the bureau update its timeline to better manage the
rulemaking process. The OIG audit reviewed the data quality of suspicious activity reporting
and recommended that FinCEN continue several ongoing efforts to further improve data quality.


Improper Payment Information Act (IPIA) Reporting

The Improper Payments Information Act of 2002 (IPIA) requires agencies to review their
programs and activities to identify those that are susceptible to significant erroneous payments.
“Significant” means that an estimated error rate and a dollar amount exceed the threshold of 2.5
percent and $10 million of total program funding.

As a bureau of the Department of the Treasury, FinCEN follows the methodology and guidance
prescribed by the Department. Each year, a comprehensive inventory of the funding sources for
all programs and activities is developed. If program or activity funding is at least $10 million,
risk assessments are required at the payment type level (e.g., payroll, contracts, vendors, travel,
etc.). For those payment types resulting in high risk assessments that comprise at least 2.5
percent and $10 million of a total funding source, (1) statistical sampling must be performed to
determine the actual improper payment rate, and (2) a corrective action plan to reduce erroneous
payments must be developed and submitted to the Office of Management and Budget (OMB) for
approval.

All of FinCEN’s programs and activities resulted in low risk susceptibility for improper
payments.




                                                 8
Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of FinCEN. While the statements have been prepared from the books and records
of FinCEN in accordance with GAAP for federal entities and the formats prescribed by OMB,
the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                9
                      United States Department of the Treasury
                       Financial Crimes Enforcement Network
                                   Balance Sheets
                                                             As of September 30
                                                          2010                2009

ASSETS (Note 2)
Intragovernmental:
   Fund balance with Treasury (Note 3)                  $47,217,643         $35,130,998
   Accounts receivable (Note 4)                           4,321,943           1,326,724
   Advances and prepayments                               1,033,977           1,320,109
Total intragovernmental                                  52,573,563          37,777,831

  Accounts receivable, net (Note 4)                           1,851               1,270
  Property and equipment, net (Note 5)                   10,972,052           6,753,289

Total assets                                            $63,547,466         $44,532,390

LIABILITIES (Note 7)
Intragovernmental:
   Accounts payable                                       4,736,945           2,204,608
   Other (Note 8)                                         1,890,283           2,169,570
Total intragovernmental                                   6,627,228           4,374,178

  Accounts payable                                        2,229,247           1,833,138
  Other (Note 8)                                          5,083,917           4,659,507
Total liabilities                                        13,940,392          10,866,823

Commitments and contingencies (Notes 9 and 10)

NET POSITION
  Unexpended appropriations                              43,181,049          31,558,804
  Cumulative results of operations                        6,426,025           2,106,763
Total net position                                       49,607,074          33,665,567
Total liabilities and net position                      $63,547,466         $44,532,390




         The accompanying notes are an integral part of these financial statements




                                                 10
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                  Statements of Net Cost
                                                      For the Years Ended September 30
PROGRAM COSTS (Note 11)                                   2010               2009
Financial systems resistant to abuse by money
launders, terrorists, etc.
   Gross costs                                          $34,919,697         $33,055,480
   Less: earned revenue                                    (27,464)            (55,039)
Net program costs                                        34,892,233          33,000,441

Detection and deterrence of money laundering,
terrorism financing and other illicit activity
   Gross costs                                           31,656,114          27,485,779
   Less: earned revenue                                   (291,533)           (364,014)
Net program costs                                        31,364,581          27,121,765

Efficient management, safeguarding, and use of BSA
Information
   Gross costs                                           61,460,683          59,826,548
   Less: earned revenue                                  (3,039,429)          (396,590)
Net program costs                                        58,421,254          59,429,958


Net cost of operations                                 $124,678,068        $119,552,164




         The accompanying notes are an integral part of these financial statements




                                                 11
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                         Statements of Changes in Net Position
                                                             For the Years Ended September 30
                                                                  2010               2009
Cumulative Results of Operations:
  Beginning balances                                            $2,106,763         $2,776,989

Budgetary financing sources:
  Appropriations used                                           98,285,880         85,729,313

Other financing sources (non-exchange):
  Transfers in without reimbursement                             3,944,045          5,355,153
  Imputed financing from costs absorbed by others (Note 6)      26,416,610         27,797,472
  Other                                                            350,795                  -
Total financing sources                                        128,997,330        118,881,938

Net cost of operations (Note 11)                              (124,678,068)      (119,552,164)
Net change                                                        4,319,262          (670,226)

Cumulative results of operations                                $6,426,025         $2,106,763

Unexpended appropriations:
  Beginning balance                                            $31,558,804        $25,676,184

Budgetary financing sources:
  Appropriations received                                      111,010,000          91,465,000
  Appropriations transferred in                                           -            250,000
  Other adjustments                                             (1,101,875)          (103,067)
  Appropriations used                                          (98,285,880)       (85,729,313)
Total budgetary financing sources                                11,622,245          5,882,620

Total unexpended appropriations                                 43,181,049         31,558,804

Net position                                                   $49,607,074        $33,665,567




          The accompanying notes are an integral part of these financial statements




                                                12
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                          Statements of Budgetary Resources
                                                         For the Years Ended September 30
                                                              2010               2009
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1            $25,041,311           $18,459,994
Recoveries of prior year unpaid obligations (Note 12)        1,460,155             1,582,110
Budget authority:
Appropriations                                             111,010,000            91,465,000
  Spending authority from offsetting collections:
    Earned
       Collected                                             4,307,253             5,788,303
       Change in receivables from Federal sources            2,995,219               339,613
    Change in unfilled customer orders
       Without advance from Federal sources                  2,887,812                  949,515

  Subtotal                                                 121,200,284            98,542,431
Non-expenditure transfers, net: anticipated and actual                -              250,000
Permanently not available (Note 12)                         (1,101,875)            (103,067)
Total budgetary resources                                 $146,599,875          $118,731,468

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
  Direct                                                  $108,317,644           $86,540,979
  Reimbursable                                              10,244,811             7,149,178
  Subtotal                                                 118,562,455            93,690,157
Unobligated balance:
  Apportioned                                               25,789,557            20,357,952
Unobligated balance not available                            2,247,863             4,683,359
Total status of budgetary resources                       $146,599,875          $118,731,468




                                                                          (continued)




          The accompanying notes are an integral part of these financial statements




                                                  13
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                          Statements of Budgetary Resources
                                                            For the Years Ended September 30
                                                                 2010               2009
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
  Unpaid obligations brought forward, October 1               $14,568,575        $12,799,924
  Less: Uncollected customer payments from Federal
    sources, brought forward, October 1                         (4,478,888)       (3,189,760)
Unpaid obligated balance, net                                   10,089,687          9,610,164
Obligations incurred, net                                      118,562,455         93,690,157
Less: Gross outlays                                          (102,128,733)       (90,339,397)
Less: Recoveries of prior year unpaid obligations, actual       (1,460,155)       (1,582,110)
Change in uncollected customer payments from Federal
  sources                                                      (5,883,031)        (1,289,128)
Obligated balance, net, end of period:
  Unpaid obligations                                           29,542,142         14,568,575
  Less: Uncollected customer payments from Federal
    sources                                                   (10,361,919)        (4,478,888)
Total, unpaid obligated balance, net, end of period           $19,180,223        $10,089,687

NET OUTLAYS
  Gross outlays                                              $102,128,733        $90,339,397
  Less: Offsetting collections                                 (4,307,253)        (5,788,303)
  Less: Distributed offsetting receipts                                  -           (16,165)
Net outlays                                                   $97,821,480        $84,534,929




          The accompanying notes are an integral part of these financial statements



                                                   14
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                             Statements of Custodial Activity


                                                       For the Years Ended September 30
                                                           2010               2009
Revenue activity (Note 13):
  Sources of cash collections:
    Civil monetary penalties                              $1,050,000             $16,308
  Total cash collections                                   1,050,000              16,308

Total custodial revenue                                    1,050,000              16,308

Disposition of collections:
  Transferred to others:
    Department of the Treasury                            (1,050,000)           (16,308)

Net custodial activity                                            $0                  $0




          The accompanying notes are an integral part of these financial statements




                                             15
                       United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2010 and 2009

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the
Department of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau
status October 26, 2001 in Public Law 107-56. The mission of FinCEN is to enhance U. S.
national security, deter and detect criminal activity, and safeguard the financial systems from
abuse by promoting transparency in the U.S. and international financial systems. This is
accomplished primarily through the administration of the Bank Secrecy Act (BSA); supporting
law enforcement, intelligence, and regulatory agencies through sharing and analysis of financial
intelligence; enhancing international anti-money laundering and counterterrorist financing efforts
and cooperation; and networking people, entities, ideas, and information.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity
with accounting principles generally accepted in the United States of America. Accounting
principles generally accepted for Federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the
United States Government.

These financial statements are provided to assist the Department of the Treasury meet the
requirements of the Government Management Reform Act of 1994. The financial statements
consist of the balance sheets and the statements of net costs, changes in net position, budgetary
resources and custodial activity. The financial statements and the related notes are presented on
a comparative basis.

FinCEN’s financial statements with respect to the balance sheets, the statements of net cost, and
the statements of changes in net position are reported using the accrual basis of accounting.
Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. FinCEN’s statement of
budgetary resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. It
generally differs from the accrual basis of accounting in that obligations are recognized when
new orders are placed, contracts awarded, and services received, that will require payments
during the same or future periods. FinCEN’s non-entity revenues are reported on the statement
of custodial activity using a modified accrual basis of accounting. With this method, revenue
from cash collections are reported separately from receivable accruals and cash disbursements
are reported separately from payable accruals. Intragovernmental assets and liabilities result



                                                16
from activity with other Federal agencies. All other assets and liabilities result from activity with
parties outside the Federal government, such as domestic and foreign persons, organizations, or
governments. Intragovernmental earned revenues are collections or accruals of revenue from
other Federal agencies, and intragovernmental costs are payments or accruals to other Federal
agencies.

While these financial statements have been prepared from the books and records of FinCEN,
these financial statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, where liabilities not covered by budgetary resources cannot be liquidated
without the enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash
receipts and disbursements. Fund balance with Treasury is composed of appropriated and trust
funds that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the
public.

Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN.
These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and
the levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s
regulatory responsibilities. Public accounts receivable are presented net of an allowance for
doubtful accounts, which is determined by considering the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Advances and Prepayments
Intragovernmental advances and prepayments primarily consist of amounts paid to the
Department of the Treasury Working Capital Fund and the Department of Interior National
Business Center Franchise Fund Acquisition Services Directorate prior to FinCEN’s receipt of
goods and services.

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight-line method over
the estimated useful lives of the assets. FinCEN capitalizes property and equipment with an
acquisition value of $25,000 or greater, and a useful life of two years or greater. FinCEN also
capitalizes bulk acquisitions of like-kind property and equipment items that are individually




                                                 17
valued under the capitalization threshold but are, in the aggregate, significant to FinCEN’s
financial position or results of operations.

Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
developed software, and software that was internally developed by agency employees. For
COTS software, the capitalized costs include the amount paid to the vendor for the software, for
contractor developed software it includes the amount paid to a contractor to design, program,
install and implement the software. Capitalized costs for internally developed software include
the full cost (direct and indirect) incurred during the software development phase.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation,
or approval for disposal of property and equipment, the value of the related asset and
corresponding accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of
the lease, or the useful life of the improvement. Amortization of capitalized software begins on
the date the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and
is valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as
a result of past transactions or events. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay
amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken.
The balance in the accrued annual leave account reflects current pay rates and leave balances,
and is reported within other liabilities in the accompanying Balance Sheet. Sick leave and other
types of non-vested leave are charged to operating costs as the leave is taken.

Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual
liability is presented as a component of intragovernmental other liabilities, and the actuarial
liability is presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have incurred work-related occupational diseases and




                                                 18
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits to employees are administered by the U.S. Department of
Labor (DOL) which initially pays valid claims and subsequently seeks reimbursement from the
Federal agencies employing the claimants. Reimbursement to DOL occurs approximately two
years subsequent to the actual disbursement to the claimant. Budgetary resources for this
intragovernmental liability are made available to FinCEN as part of its annual appropriation from
Congress in the year in which the reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for
future workers’ compensation benefits includes the expected liability for death, disability,
medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Based on information provided by the DOL, Treasury allocates
the overall Treasury liability to Treasury components based on prior claims payment experience.
The accrued liability is not covered by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration
(GSA) for the Vienna, VA facility contains a rent abatement period. FinCEN is recognizing rent
expense on a straight-line basis over the lease term. Accordingly, an unamortized rent abatement
liability is included in other intragovernmental liabilities in the accompanying Balance Sheet.
This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service
Retirement System (CSRS). As of September 30, 2010 and 2009, FinCEN contributed 7 percent
of base pay for regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2010 and 2009, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is
that it offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and
matches employee contributions up to an additional 4 percent of base pay. FinCEN also
contributes the employer’s Social Security matching share for FERS participants.

FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to FinCEN employees. Reporting such amounts is the responsibility of the Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not




                                               19
contribute funds for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by
OPM. The additional expense representing the difference between the estimated cost and the
employer and employee contributions for these programs is included as an expense and as a
related imputed financing source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or
assets are purchased. Exchange revenue from reimbursable agreements is recognized when
earned (i.e., goods have been delivered or services rendered). Reimbursable work between
Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes
authorizing reimbursement. Prices for goods and services sold to other Federal agencies are
generally limited to the recovery of actual costs. FinCEN recognizes as an imputed financing
source the amount of pension and post-retirement benefit expense for current employees paid on
behalf of FinCEN by the Office of Personnel Management (OPM), as well as amounts paid from
the Department of Treasury Judgment Fund in settlement of claims, legal settlements, or court
assessments. When costs that are identifiable to FinCEN and directly attributable to FinCEN’s
operations are paid for by other agencies, FinCEN recognizes these amounts as imputed costs
and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods
and services received by FinCEN from a providing bureau that is part of Treasury. FinCEN
identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to
the entity, directness of the relationship to entity operations, identifiably) that are not fully
reimbursed and recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-
entity accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported
on FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of
laws and regulations under FinCEN’s regulatory responsibility.

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that
have been established as a legally enforceable claim and collection is probable. Proceeds from
the civil monetary penalty assessments are ultimately deposited in the Treasury General Fund
based on established laws and regulations. These funds are not available to fund FinCEN’s
operating activities and accordingly, an offsetting liability due to the Treasury General Fund is




                                                   20
recorded for amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An
allowance for doubtful accounts is established based on an assessment of the debtor’s current
ability to pay, the debtor’s payment record and willingness to pay, and an analysis of aged
receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities, the disclosure of contingencies at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period.
Significant estimates relate to an allowance for loss on a receivable for fines and penalties,
accrued payroll and benefits, and accrued unfunded leave. Actual results may differ from those
estimates.


NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2010 and 2009 consisted of the following:

                                                             2010                   2009
 Civil penalties assessed                                  $1,500,000             $1,500,000
 Less allowance for doubtful collection                    (1,500,000)            (1,500,000)

            Total non-entity assets                                 0                      0
 Total entity assets                                       63,547,466             44,532,390
            Total assets                                  $63,547,466            $44,532,390

Non-entity accounts receivable as of September 30, 2010 and 2009 represents civil monetary
penalties due from non-Federal sources for violations of laws or regulations under FinCEN’s
regulatory responsibility.

The total non-entity assets, if any, are offset on the balance sheet by the custodial liability Due to
the Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.




                                                 21
NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2010 and 2009 consisted of the following
components:

                                                2010                      2009

 Trust funds                                      $65,164                  $122,921
 Appropriated funds                            47,152,479                35,008,077
 `
 Total                                        $47,217,643               $35,130,998

Trust funds consist of a violent crime reduction expenditure account that is designated by law as
a trust fund. Receipts in this account are used for law enforcement related information
technology projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations
of FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2010 and 2009 consisted of the
following:

                                                2010                      2009
 Unobligated balance:
   Available                                  $25,789,557               $20,357,952
   Unavailable                                  2,247,863                 4,683,359
 Obligated balance not yet disbursed           19,180,223                10,089,687

 Total                                        $47,217,643               $35,130,998

The unobligated balance unavailable represents amounts appropriated in prior fiscal years that
are not available to fund new obligations, but may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a bona fide
need that arose in the fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not
yet been made.




                                               22
NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2010 and 2009, were as follows:

                                                     2010                 2009
 Intragovernmental:
    Accounts receivable                            $4,321,943          $1,326,724
 Public:
    Accounts receivable                                  1,851               1,270
    Civil penalties assessed                         1,500,000           1,500,000
    Less allowance for doubtful collection         (1,500,000)         (1,500,000)
    Public accounts receivable, net                      1,851               1,270
 Total accounts receivable, net                    $4,323,794          $1,327,994

Intragovernmental accounts receivable arise generally from the provision of goods and services
to other Federal agencies.

Accounts receivable from public sources consist of administrative receivables from employees or
suppliers and civil monetary penalties which have been billed or accrued and remain uncollected
as of year-end. The collection of civil monetary penalties is a custodial activity performed by
FinCEN. An allowance for doubtful accounts of $1,500,000 has been recognized to offset a civil
monetary penalty. The claim has been referred to Department of Justice for possible termination
of collection activity.




                                              23
NOTE 5. PROPERTY AND EQUIPMENT, NET

Property and equipment as of September 30, 2010 and 2009 consisted of the following:

                                                                        2010
                                       Useful                        Accumulated            Net
                      Depreciation      Life           Acquisition   Depreciation/         Book
                        Method       (In years)           Cost       Amortization          Value
Furniture, fixtures
and equipment             S/L           5-7             $5,392,572    ($3,857,232)        $1,535,340
Construction in
progress                  N/A          N/A                 802,479                   -      802,479
Internal-use
software                  S/L            5              16,395,699    (11,018,396)         5,377,303
Internal-use
software in
development               N/A          N/A               2,772,370                   -     2,772,370
Leasehold
improvements              S/L           3-5              1,319,575       (835,015)           484,560
Total                                                  $26,682,695   ($15,710,643)       $10,972,052

                                                                        2009
                                       Useful                        Accumulated            Net
                      Depreciation      Life           Acquisition   Depreciation/         Book
                        Method       (In years)           Cost       Amortization          Value
Furniture, fixtures
and equipment             S/L           5-7             $7,485,014    ($4,970,215)        $2,514,799
Construction in
progress                  N/A          N/A                  92,483                   -       92,483
Internal-use
software                  S/L            5              13,072,470     (9,831,198)         3,241,272
Internal-use
software in
development               N/A          N/A                 444,501                   -      444,501
Leasehold
improvements              S/L           3-5              1,269,767       (809,533)           460,234
Total                                                  $22,364,235   ($15,610,946)        $6,753,289

Construction-in-progress represents equipment that has been received but has not yet been
constructed and placed into operation.

Internal-use software in development represents actual (direct) costs and other indirect costs
incurred for various software development projects not yet placed in service. Depreciation and
amortization expense recognized during the year ended September 30, 2010 and 2009 was
$2,291,942 and $2,420,252, respectively.




                                                  24
NOTE 6. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs borne by the Office of Personnel Management for
employee related costs as well as with the Internal Revenue Service. Imputed financing costs
borne by the Internal Revenue Service relate to the collection and processing of Bank Secrecy
Act Data. A summary of the imputed financing costs by agency for the years ended September
30, 2010 and 2009 is as follows:

                                                   2010                    2009

 Office of Personnel Management                 $2,959,710                $2,144,252
 Internal Revenue Service                       23,456,900                25,653,220
 Total Imputed Financing Sources               $26,416,610               $27,797,472


NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources
is dependent on future congressional appropriations. The September 30, 2010 and 2009
liabilities not covered by budgetary resources consisted of the following:

                                                             2010                      2009
Intragovernmental:
      Accrued workers’ compensation                            $3,143                   $6,686
      Unamortized rent abatement                            1,394,025                1,765,765
              Total intragovernmental                       1,397,168                1,772,451
Public:
      Accrued annual leave                                  3,037,778                2,819,101
      Actuarial liability for workers’ compensation            22,816                   23,885
              Total public                                  3,060,594                2,842,986
Total liabilities not covered by budgetary resources        4,457,762                4,615,437
Total liabilities covered by budgetary resources or
      non-entity assets                                     9,482,630               6,251,386
              Total liabilities                           $13,940,392             $10,866,823




                                              25
NOTE 8. OTHER LIABILITIES

Other liabilities as of September 30, 2010 and 2009 consisted of the following:

                                                                    2010
                                              Non-Current          Current           Total
 Intragovernmental:
    Due to Treasury General Fund                           $-             $0               $0
    Accrued employee benefits                               -        493,115          493,115
    Accrued workers’ compensation                         516          2,627            3,143
    Unamortized rent abatement                      1,022,285        371,740        1,394,025
 Total intragovernmental                            1,022,801        867,482        1,890,283
 Public:
   Accrued payroll and employee benefits                    -      2,023,323        2,023,323
   Accrued annual leave                                     -      3,037,778        3,037,778
   Actuarial liability for workers’
     compensation                                   22,816                 -           22,816
 Total public                                       22,816         5,061,101        5,083,917
 Total other liabilities                        $1,045,617        $5,928,583       $6,974,200

                                                                    2009
                                              Non-Current          Current           Total
 Intragovernmental:
    Due to Treasury General Fund                           $-             $0               $0
    Due to other Federal agencies                           -          1,573            1,573
    Accrued employee benefits                               -        395,546          395,546
    Accrued workers’ compensation                       3,142          3,544            6.686
    Unamortized rent abatement                      1,394,025        371,740        1,765,765
 Total intragovernmental                            1,397,167        772,403        2,169,570
 Public:
   Accrued payroll and employee benefits                    -      1,816,521        1,816,521
   Accrued annual leave                                     -      2,819,101        2,819,101
   Actuarial liability for workers’
     compensation                                   23,885                 -           23,885
 Total public                                       23,885         4,635,622        4,659,507
 Total other liabilities                        $1,421,052        $5,408,025       $6,829,077

Amounts due to other agencies include payroll collections received for employees of those
agencies.




                                               26
NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is not
committed to continue to pay rent to GSA beyond the period occupied providing proper advance
notice to GSA is made. However, it is expected that FinCEN will continue to occupy and lease
office space from GSA in future years. The lease expense incurred related to GSA leases during
fiscal years 2010 and 2009 was $4,722,838 and $4,584,206, respectively.

As of September 30, 2010 future lease payments due under non-cancelable operating leases are
as follows:

                            2011                          $24,361
                            2012                           24,361
                            2013                           24,361
                            2014                           24,361
                            2015                           24,361
                            Thereafter                    306,542
                            Total future payments        $428,347


NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. In the opinion
of management and legal counsel, no legal actions against FinCEN were both probable and
estimable as of September 30, 2010 and 2009, and no legal liabilities have been accrued in the
accompanying financial statements.

There were no pending or threatened litigation or unasserted claims as of September 30, 2010
and 2009.




                                              27
NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and exchange revenue for the years ended September 30, 2010 and 2009
consisted of the following:

                                                                      2010                2009
 PROGRAM COSTS
 Financial systems resistant to abuse by money launders,
 terrorists, etc.

   Intragovernmental costs                                         $19,477,413         $18,724,719
   Public costs                                                     15,442,284          14,330,761
     Total program costs                                            34,919,697          33,055,480
   Intragovernmental earned revenue                                   (27,464)            (55,039)
 Net program cost                                                   34,892,233          33,000,441

 Detection and deterrence of money laundering,
 terrorism financing and other illicit activity

   Intragovernmental costs                                          17,657,061           15,569,687
   Public costs                                                     13,999,053           11,916,092
     Total program costs                                            31,656,114           27,485,779
   Intragovernmental earned revenue                                  (291,533)            (364,014)
 Net program cost                                                   31,364,581           27,121,765

 Efficient management, safeguarding, and use of BSA
 information

   Intragovernmental costs                                          34,281,371           33,889,548
   Public costs                                                      27,179,312          25,937,000
     Total program costs                                             61,460,683          59,826,548
   Intragovernmental earned revenue                                 (3,039,429)           (396,590)
 Net program cost                                                    58,421,254          59,429,958

 Net cost of operations                                           $124,678,068        $119,552,164


The criteria used for this classification are that the intragovernmental costs relate to the source of
goods and services purchased by the reporting entity, and not to the classification of related
revenue. For example, “exchange revenue with the public” is when the buyer of the goods or
services is a non-Federal entity. While with “intragovernmental costs,” the buyer and seller are




                                                 28
both Federal entities. If a Federal entity purchases goods or services from another Federal entity
and sells them to the public, the exchange revenue would be classified as “with the public,” but
the related costs would be classified as “intragovernmental.” The purpose of this classification is
to enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.


NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2010 and 2009 consisted of the following:

                                                  2010                       2009
 Direct Obligations
     Category B                               $108,317,644                $86,540,979
 Reimbursable Obligations
     Category B                                 10,244,811                  7,149,178
 Total                                        $118,562,455                $93,690,157

Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects,
or objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2010 and 2009
consisted of the following:

                                                 2010                     2009

 Recoveries of prior year obligations          $1,460,155              $1,582,110
 Cancellations of expired accounts            (1,101,875)               (103,067)
 Total                                          $358,280               $1,479,043

Differences Between the Statement of Budgetary Resources and the Budget of the United
States
The fiscal year 2012 Budget of the United States Government (also known as the President’s
Budget) with actual numbers for fiscal year 2010, was not published at the time these financial
statements were issued. The President’s Budget is expected to be published in February 2011.
There were no material differences between the fiscal year 2009 Statement of Budgetary
Resources and the actual fiscal year 2009 balances included in the fiscal year 2011 President’s
Budget.



                                                29
Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2010 and 2009 were $21,093,488 and $9,637,297,
respectively.


NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2010 and 2009 cash collections and distributions to Treasury were $1,050,000 and $16,308,
respectively




                                               30
NOTE 14. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
TO BUDGET
A reconciliation of net cost of operations to budget for the years ended September 30, 2010 and
2009 follows:

                                                               For the Years Ended September 30
                                                                     2010               2009
 Resources used to finance activities:
 Budgetary resources obligated:
   Obligations incurred                                             $118,562,455       $93,690,157
   Less: Spending authority from offsetting collections and
     recoveries                                                      (11,650,439)      (8,659,541)
   Obligations net of offsetting collections and recoveries          106,912,016       85,030,616
   Less: Offsetting receipts                                                    -         (16,165)
   Net obligations                                                   106,912,016       85,014,451
 Other resources:
   Transfers in without reimbursement                                   3,944,045        5,355,153
   Imputed financing from costs absorbed by others                     26,416,610       27,797,472
   Other                                                                  350,795                -
   Net other resources used to finance activities                      30,711,450       33,152,625

 Total resources used to finance activities                           137,623,466      118,167,076

 Resources used to finance items not part of the net cost of operations:
 Change in budgetary resources obligated for goods, services
      and benefits ordered but not yet provided                          8,568,379       (710,488)
 Resources that fund expenses recognized in prior periods                  376,353         369,605
 Budgetary offsetting collections and receipts that do not affect
      net cost of operations
          Other                                                          3,944,045       5,338,988
 Resources that finance the acquisition of assets                        6,655,967       1,983,340
 Other resources or adjustments to net obligated resources that
      do not affect net cost of operations                             (3,593,250)     (5,355,153)
 Total resources used to finance items not part of the net
 cost of operations                                                     15,951,494       1,626,292

 Total resources used to finance the net cost of operations           121,671,972      116,540,784




                                                                                     (Continued)




                                                  31
                                                           For the Years Ended September 30
                                                                 2010               2009
Components of the net cost of operations that will not
require or generate resources in the current period:
Components requiring or generating resources in future
periods:
   Increase in annual leave liability                              $218,678        $427,818
   Other                                                                  -           2,681
Total components of net cost of operations that will
require or generate resources in future periods                     218,678         430,499
Components not requiring or generating resources:
   Depreciation and amortization                                  2,291,942       2,420,252
   Revaluation of assets or liabilities                             496,057         160,629
   Other                                                              (581)               -
Total components of net cost of operations that will not
require or generate resources                                     2,787,418       2,580,881

Total components of net cost of operations that will not
require or generate resources in the current period               3,006,096       3,011,380

Net cost of operations                                         $124,678,068    $119,552,164




                                                32
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                         Required Supplementary Information
                   For the Years Ended September 30, 2010 and 2009

STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2010
and 2009 consisted of the following:

                                                                         2010
                                                        Appropriated    Trust
                                                          Funds         Funds             Total
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1         $25,001,852     $39,459         $25,041,311
 Recoveries of prior year unpaid obligations               1,425,096      35,059           1,460,155
 Budget authority:
   Appropriations                                        111,010,000            -        111,010,000
 Spending authority from offsetting collections:
   Earned
     Collected                                             4,307,253            -             4,307,253
     Change in receivables from Federal sources            2,995,219            -             2,995,219
   Change in unfilled customer orders
     Without advance from Federal sources                  2,887,812            -             2,887,812
    Subtotal                                             121,200,284            -        121,200,284
 Permanently not available                                (1,101,875)           -         (1,101,875)
 Total budgetary resources                              $146,525,357     $74,518       $146,599,875

 STATUS OF BUDGETARY RESOURCES
 Obligations incurred:
    Direct                                              $108,308,290      $9,354       $108,317,644
   Reimbursable                                           10,244,811           -         10,244,811
   Subtotal                                              118,553,101       9,354         118,562,455
 Unobligated balance:
   Apportioned                                            25,724,393      65,164          25,789,557
 Unobligated balance not available                         2,247,863           -           2,247,863
 Total status of budgetary resources                    $146,525,357     $74,518       $146,599,875




                                                                                (Continued)




                                                   33
                                                                               2010
                                                             Appropriated     Trust
                                                               Funds          Funds           Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
  Unpaid obligations brought forward, October 1               $14,485,113      $83,462      $14,568,575
  Less: Uncollected customer payments from Federal
     sources, brought forward, October 1                       (4,478,888)             -     (4,478,888)
   Total unpaid obligated balance, net                         10,006,225       83,462       10,089,687
Obligations incurred, net                                      118,553,101       9,354       118,562,455
Less: Gross outlays                                          (102,070,976)    (57,757)     (102,128,733)
Less: Recoveries of prior year unpaid obligations, actual       (1,425,096)   (35,059)        (1,460,155)
Change in uncollected customer payments from Federal
   sources                                                     (5,883,031)             -     (5,883,031)
Obligated balance, net, end of period
   Unpaid obligations                                          29,542,142              -     29,542,142
   Less: Uncollected customer payments from Federal
     sources                                                  (10,361,919)             -    (10,361,919)
Total, unpaid obligated balance, net, end of period           $19,180,223             $-    $19,180,223

NET OUTLAYS
  Gross outlays                                              $102,070,976      $57,757     $102,128,733
  Less: Offsetting collections                                 (4,307,253)           -       (4,307,253)
  Less: Distributed offsetting receipts                                  -           -                 -
Net outlays                                                   $97,763,723      $57,757      $97,821,480




                                                        34
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                         Required Supplementary Information
                   For the Years Ended September 30, 2010 and 2009

                                                                             2009
                                                             Appropriated   Trust
                                                               Funds        Funds                  Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $18,398,401    $61,593              $18,459,994
Recoveries of prior year unpaid obligations                     1,537,236     44,874                1,582,110
Budget authority:
  Appropriations                                               91,465,000            -             91,465,000
Spending authority from offsetting collections:
  Earned
    Collected                                                   5,788,303            -              5,788,303
    Change in receivables from Federal sources                    339,613            -                339,613
  Change in unfilled customer orders
    Without advance from Federal sources                          949,515            -               949,515
   Subtotal                                                    98,542,431            -             98,542,431
Non-expenditure transfer, net: anticipated and actual             250,000            -                250,000
Permanently not available                                       (103,067)            -              (103,067)
Total budgetary resources                                    $118,625,001   $106,467          $118,731,468

STATUS OF BUDGETARY RESOURCES
Obligations incurred:
   Direct                                                     $86,473,971    $67,008              $86,540,979
  Reimbursable                                                  7,149,178          -                7,149,178
  Subtotal                                                     93,623,149    $67,008               93,690,157
Unobligated balance:
  Apportioned                                                  20,318,493     39,459               20,357,952
Unobligated balance not available                               4,683,359          -                4,683,359
Total status of budgetary resources                          $118,625,001   $106,467          $118,731,468




                                                                                    (Continued)




                                                        35
                                                                              2009
                                                             Appropriated    Trust
                                                               Funds         Funds         Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
  Unpaid obligations brought forward, October 1               $12,711,889     $88,035    $12,799,924
  Less: Uncollected customer payments from Federal
     sources, brought forward, October 1                      (3,189,760)            -    (3,189,760)
   Total unpaid obligated balance, net                          9,522,129      88,035      9,610,164

Obligations incurred, net                                      93,623,149      67,008      93,690,157
Less: Gross outlays                                          (90,312,690)    (26,707)    (90,339,397)
Less: Recoveries of prior year unpaid obligations, actual     (1,537,236)    (44,874)     (1,582,110)
Change in uncollected customer payments from Federal
   sources                                                    (1,289,128)            -    (1,289,128
Obligated balance, net, end of period
   Unpaid obligations                                          14,485,113      83,462     14,568,575
   Less: Uncollected customer payments from Federal
     sources                                                   (4,478,888)          -     (4,478,888)
Total, unpaid obligated balance, net, end of period           $10,006,225     $83,462    $10,089,687

NET OUTLAYS
  Gross outlays                                               $90,312,690     $26,707    $90,339,397
  Offsetting collections                                       (5,788,303)          -     (5,788,303)
  Distributed offsetting receipts                                 (16,165)          -        (16,165)
Net outlays                                                   $84,508,222     $26,707    $84,534,929




                                                        36
gka, P.C.                                                     Certified Public Accountants | Management Consultants

                                    Independent Auditor's Report on Financial Statements
1015 18th Street, NW
      Suite 200
  Washington, DC          Inspector General, U.S. Department of the Treasury, and
        20036             Director, Financial Crimes Enforcement Network:

  Phone: 202-857-1777     We have audited the accompanying balance sheet of the U.S. Department of
   Fax: 202-857-1778
Website: www.gkacpa.com   the Treasury - Financial Crimes Enforcement Network (FinCEN) as of
                          September 30, 2010, and the related statements of net cost, changes in net
                          position, budgetary resources and custodial activity (hereinafter referred to as
                          “financial statements”) for the year then ended. These financial statements are
                          the responsibility of FinCEN’s management. Our responsibility is to express
                          an opinion on these financial statements based on our audit. The financial
                          statements of FinCEN as of September 30, 2009 were audited by another
                          auditor whose report dated December 15, 2009, expressed an unqualified
                          opinion on those statements.

                          We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended. Those standards and OMB Bulletin
                          07-04 require that we plan and perform the audit to obtain reasonable
                          assurance about whether the financial statements are free of material
                          misstatement. An audit includes examining, on a test basis, evidence
                          supporting the amounts and disclosures in the financial statements. An audit
                          also includes assessing the accounting principles used and significant estimates
                          made by management, as well as evaluating the overall financial statement
                          presentation. We believe that our audit provides a reasonable basis for our
                          opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of FinCEN as of September 30, 2010,
                          and its net costs, changes in net position, budgetary resources and custodial
                          activity for the year then ended in conformity with accounting principles
                          generally accepted in the United States of America.

                          The information in the Management Discussion and Analysis and Required
                          Supplementary Information sections is not a required part of the financial
                          statements, but is supplementary information required by accounting principles
                          generally accepted in the United States of America and OMB Circular A-136,
                          Financial Reporting Requirements. We have applied certain limited



                                                               Member of the American Institute of Certified Public Accountants
procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this
information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
October 29, 2010, on our consideration of FinCEN’s internal control over financial reporting,
and on our tests of its compliance with certain provisions of applicable laws, regulations, and
contracts. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audit.




October 29, 2010




                                              38
                                                              Certified Public Accountants | Management Consultants

gka, P.C.                     Independent Auditor's Report on Internal Control over Financial
                                                       Reporting

1015 18th Street, NW      Inspector General, U.S. Department of the Treasury, and
      Suite 200           Director, Financial Crimes Enforcement Network:
  Washington, DC
        20036             We have audited the balance sheet and the related statements of net cost,
                          changes in net position, budgetary resources and custodial activity, hereinafter
  Phone: 202-857-1777     referred to as “financial statements” of the U.S. Department of the Treasury -
   Fax: 202-857-1778
Website: www.gkacpa.com   Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2010, and have issued our report thereon dated October 29,
                          2010. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                          Financial Statements, as amended.

                          In planning and performing our audit, we considered FinCEN’s internal control
                          over financial reporting by obtaining an understanding of the design
                          effectiveness of FinCEN’s internal control, determined whether these internal
                          controls had been placed in operation, assessed control risk, and performed
                          tests of controls as a basis for designing our auditing procedures for the
                          purpose of expressing our opinion on the financial statements. We limited our
                          internal control testing to those controls necessary to achieve the objectives
                          described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                          We did not test all internal controls relevant to operating objectives as broadly
                          defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                          those controls relevant to ensuring efficient operations. The objective of our
                          audit was not to provide an opinion on the effectiveness of FinCEN’s internal
                          control over financial reporting. Consequently, we do not provide an opinion
                          on the effectiveness of FinCEN’s internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might
                          be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                          in internal control exists when the design or operation of a control does not
                          allow management or employees, in the normal course of performing their
                          assigned functions, to prevent or detect and correct misstatements on a timely
                          basis. A significant deficiency is a deficiency or a combination of deficiencies,
                          in internal control that is less severe than a material weakness, yet important
                          enough to merit attention by those charged with governance. A material
                          weakness is a deficiency, or a combination of deficiencies, in internal control,
                          such that there is a reasonable possibility that a material misstatement of the



                                                               Member of the American Institute of Certified Public Accountants
entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and the U.S. Congress, and is not intended to be, and should not be used by
anyone other than these specified parties. However, this report is a matter of public record and
its distribution is not limited.




October 29, 2010




                                               40
gka, P.C.
                                                             Certified Public Accountants | Management Consultants

                                      Independent Auditor's Report on Compliance with
                                                   Laws and Regulations
1015 18th Street, NW
      Suite 200           Inspector General, U.S. Department of the Treasury, and
  Washington, DC          Director, Financial Crimes Enforcement Network:
        20036
  Phone: 202-857-1777     We have audited the balance sheet and the related statements of net cost,
   Fax: 202-857-1778
Website: www.gkacpa.com   changes in net position, budgetary resources and custodial activity, hereinafter
                          referred to as “financial statements” of the U.S. Department of the Treasury -
                          Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2010, and have issued our report thereon dated October 29,
                          2010. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and, the applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended.

                          The management of FinCEN is responsible for complying with laws and
                          regulations applicable to FinCEN. As part of obtaining reasonable assurance
                          about whether FinCEN’s financial statements are free of material
                          misstatement, we performed tests of its compliance with certain provisions of
                          laws and regulations and contracts, noncompliance with which could have a
                          direct and material effect on the determination of financial statement amounts,
                          and certain provisions of other laws and regulations specified in OMB Bulletin
                          No. 07-04, including certain requirements referred to in Section 803(a) of the
                          Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to the provisions described in the preceding
                          sentence, and we did not test compliance with all laws, regulations and
                          contracts applicable to FinCEN. However, our objective was not to provide an
                          opinion on overall compliance with laws, regulations and contracts.
                          Accordingly, we do not express such an opinion.

                          The results of our tests of compliance with laws, regulations and contracts
                          described in the preceding paragraph, exclusive of FFMIA, disclosed no
                          instances of noncompliance that are required to be reported under Government
                          Auditing Standards and OMB Bulletin No. 07-04.

                          Under FFMIA, we are required to report whether FinCEN’s financial
                          management systems substantially comply with (1) federal financial
                          management systems requirements, (2) applicable federal accounting
                          standards, and (3) the United States Government Standard General Ledger at
                          the transaction level. To meet this requirement, we performed tests of
                          compliance with FFMIA section 803(a) requirements.


                                                               Member of the American Institute of Certified Public Accountants
The results of our tests disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and U.S. Congress and is not intended to be, and should not be used by anyone
other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




October 29, 2010




                                             42
